I certify that true copies of this Affidavit Accompanying Motion for Permission to Appeal in
Forma Pauperis were mailed electronically or via Certified U.S. Mail, postage prepaid on or
about [27] day of [November, 2020], to:
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Telephone: 202-479-3000
1. MO. STATE ATTORNEY GENERAL JOSH HAWLEY & SAID OFFICE’S OTHER
OFFICIALS; Missouri Attorney General's Office Supreme Court Building 207 W. High
St. P.O. Box 899 Jefferson City, MO 65102 Phone: 573-751-3321
2. CHARLES RETTIG IRS COMMISSIONER & EMPLS. OF THE IRS Internal
Revenue Service 1111 Constitution Avenue, NW Washington, DC 20224, United States
IRS Commissioner Contact Phone Number is : 202-803-9000, 1-800-829-1040, 1-800829-4933
3. KENNETH ZELLERS ACTING DIR OF THE MISSOURI DEPARTMENT OF
REVENUE EMPLOYEES OF THE MO. DEPARTMENT OF REVENUE & THE
TREASURER AS CUSTODIAN OF THE SEC. INJURY FUND Harry S Truman State
Office Building 301 West High Street Jefferson City, MO 65101 Driver License: 573526-2407 dlbmail@dor.mo.gov Motor Vehicle: 573-526-3669 mvbmail@dor.mo.gov
Taxation: 573-751-3505
4. U.S. ATTORNEY GENERAL WILLIAM BARR & EMPLOYEES OF THE
ATTORNEY GENERAL’S OFFICE Department of Justice 950 Pennsylvania Avenue,
NW Washington, DC 20530-0001 Main Switchboard 202-514-2000
5. THE TAX COURT 41 South Central Clayton, MO 63105 Phone : (314) 615-8029;
6. RICK STEVENS, PRESIDENT OF CHRISTIAN HOSPITAL & EMPLOYEES OF
CHRISTIAN HOSPITAL NORTHWEST Christian Hospital 11133 Dunn Road St.
Louis, Missouri 63136 USA phone 314.653.5000
AT&T,
Miller and Steeno, P.C. Attorneys and Counselors at Law 11970 Borman Drive,
7.
Suite 250 St. Louis, Missouri 63146
DR.
SETH TILZER 11133 Dunn Rd # H2241, St. Louis, Mo 63136 phone (314) 6538.
5000
9. THE BANKRUPTCY COURT OF THE EASTERN DISTRICT OF MISSOURI
Thomas F. Eagleton US Courthouse 111 S. 10th Street, 4th Floor St. Louis, MO 63102
phone (314) 244-4500
10. GOVERNOR MIKE PARSON AND EMPLOYEES OF THE STATE OF MO. Capitol
Building Rm 216, P.O. Box 720 Jefferson City, MO 65102 phone (573) 751-3222;
11. JUDGE MAURA B. Me SHANE Hon. Maura B. McShane Circuit Court of St. Louis
County 105 South Central Avenue Clayton, Missouri 63105 phone (314)615-8029;
12. JAY ASHCROFT MO. SEC. OF COMMERCE & SECRETARY OF STATE Office
of the Missouri Secretary of State Securities Division 600 West Main Street PO Box
1276 Jefferson City, MO 65101 phone (573)751-4936
13. U.S. SECRETARY OF COMMERCE WILBUR ROSS, THE DEP. OF
COMMERCE’S EMPLOYEES, EMPLOYEES OF NATIONAL TELECOM. &
INFORMATION ADMINISTRATION & THE DIRECTOR OF THE OFFICE OF

48 of 52

TELECOMMUNICATIONS 1401 CONSTITUTION AVE., NW WASHINGTON,
D.C. 20230, (202) 482-2000
14. U.S. SECRETARY OF THE INTERIOR DAVID BERNHARDT & EMPLOYEES OF
DEPARTMENT OF INTERIOR Department of the Interior 1849 C Street, N.W.
Washington DC 20240 (202) 208-3100
15. THE CITY OF MOLINE ACRES’ ATTORNEY, ITS EMPLOYEES & ITS INSURER
2449 CHAMBERS RD. SAINT LOUIS, MO 63136, (314) 868-2433;
16. JENNIFER TIDBALL DIR. OF THE DEPT. OF SOCIAL SERVICES &EMPLS. OF
THE DEPARTMENT OF SOCIAL SERVICES 114 B E. High Street Jefferson City,
Mo 65101 phone 573-751-4815
17.BETSY DEVOS U.S. SECRETARY OF EDUCATION & EMPLS. OF THE DEPT.
OF EDUCATION 400 MARYLAND AVENUE, SW WASHINGTON, D.C. 20202, 1
800 437-0833 fax (1-800-872-5327 TTY)
18. CHRIS SLINKARD DIRECTOR OF THE MO. DIVISION OF EMPLOYMENT
SECURITY & EMPLOYEES OF THE MO. DEPARTMENT OF EMPLOYMENT
SECURITY, Division of Employment Security P.O. Box 59 Jefferson City, Mo 651040059 Fax: 573-751-9730 Claimant Contact: 800-320-2519 Employer Contact: 573-7511995
19. COMMISSIONER AJIT PAI & MICHAEL O’RIELLY, EMPLOYEES OF FEDERAL
COMMUNICATIONS COMMISSION & BRENDAN CARR 45 L STREET, NE
WASHINGTON, DC 20554, (888) 225-5322
20. ANNA HUI MISSOURI DIRECTOR OF LABOR & INDUSTRIAL RELATIONS &
EMPLOYEES OF THE LOBOR & INDUSTRIAL RELATIONS COMMISSION 421
East Dunklin St. P.O. Box 504 Jefferson City, MO 65102-0504 Telephone: 573-7514091 Fax: 573-751-4135 E-mail: diroffice@labor.mo.gov
21. MARK STRINGER, DIRECTOR OF THE DEPARTMENT OF MENTAL HEALTH
IN THE STATE OF MISSOURI, EMPLOYEES OF THE DEPT. OF MENTAL
HEALTH & EMPLOYEES OF THE METROPOLITAN ST. LOUIS
PSYCHIACTRIC CENTER, 1706 East Elm P.O. Box 687 Jefferson City, Missouri
65102 573/751-3070 dmh.mo.gov
22. ANDREW SAUL ACTING COMMISSIONER OF SOCIAL SECURITY & EMPLS.
OF THE SOCIAL SECURITY ADMIN. 1100 West High Rise, 6401 Security Blvd.,
Baltimore, MD 21235. 1-800-325-0778
23. THOMAS F. GEORGE OFFICE OF THE CHANCELLOR & EMPLOYEES OF THE
UNIVERSITY OF MISSOURI ST. LOUIS 1 University Blvd. 401 Woods Hall St.
Louis, MO 63121-4400 Office Number: (314) 516-5252
24.ANDREW MARTIN CHANCELLOR (CHAIR) WASH. UNIVERSITY’S VICE
CHANCELLOR FOR HUMAN RESOURCES & EMPLOYEES OF WASH. U.
Campus Box 1192 ONE BROOKINGS DRIVE ST. LOUIS, MO 63130 (314) 935-5100
25. WASHINGTON UNIVERSITY’S POLICE DEPARTMENT & ITS ATTORNEYS
ONE BROOKINGS BOX 1038 ST. LOUIS, MO 63130 314-935-5555)
26. WARNER L. BAXTER CHAIRMAN, PRESIDENT & CHIEF EXECUTIVE OFFICE
OF AMEREN CO., EMPLOYEES OF AMEREN U.E. ELECTRIC CO. & ITS
INSURER, 1901 CHOUTEAU AVENUE ST. LOUIS, MO 63103, 314 621-3222
27. TYLER ASHER PRESIDENT OF SAFECO INSURANCE, EMPLOYEES OF
SAFECO NATIONAL INSURANCE & SAFECO GROUP OF INSURANCE

49 of 52

COMPANIES 1400 South Highway Drive Suite 100 Fenton, MO 63026 1-888-7233260
28. ADMINR.
ANDREW
WHEELER,
EMPLOYEES
OF
THE U.
S.
ENVIRONMENTAL PROTECTION AGENCY & THE FEDERAL INTERAGENCY
COMMITTEE ON AVIATION NOISE 1200 Pennsylvania Avenue, N.W. Washington,
DC 20460 (202) 564-4700
29. ACTING REGIONAL 7 ADMINISTRATOR EDWARD H. CHU, EMPLOYEES OF
THE MO. EPA & THE MO. AIR CONSERVATION COMMISSION 11201 Renner
Blvd. Lenexa, KS 66219 913-551-7003 or 800-223-0425
30. ELAINE LAN CHAO U.S. SECRETARY OF TRANSPORTATION & EMPLOYEES
OF THE FEDERAL AVIATION ADMIN. 1200 NEW JERSEY AVE, SE
WASHINGTON, DC 20590, 855-368-4200
31. ADMINISTRATIVE AIDE TO THE CHIEF OF POLICE (PRIVATE SECURITY)
COLONEL JON BELMAR CHIEF OF POLICE, OFFICE OF THE CHIEF OF
POLICE St. Louis County Police Department Private Security Section 7900Forsyth,
Room B021 Clayton, Missouri 63105 314-615-4272 Private Security Section at 314615-5348 (City) or 314-615-4656 (County)
32. JANET L. SCHANZLE SECURITY ARMORED CAR. & ITS INSURERS 1022
SOUTH NINTH STREET ST. LOUIS, MISSOURI 63104, 314-231-4030;
33. MO. BOARD OF REGISTRATION FOR THE HEALING ARTS 3605 Missouri
Boulevard P.O. Box 4 Jefferson City, MO 65102 573.751.0098 Telephone
573.751.3166 Fax 800.735.2966 TTY 800.735.24663605 Missouri Boulevard P.O.
Box 4 Jefferson City, MO 65102 573.751.0098 Telephone 573.751.3166 Fax
800.735.2966 TTY 800.735.2466

50 of 52

